<html>
<title> - A REVIEW OF THE PIPELINE SAFETY, REGULATORY CERTAINTY, AND JOB CREATION ACT OF 2011</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                    A REVIEW OF THE PIPELINE SAFETY,
                       REGULATORY CERTAINTY, AND
                        JOB CREATION ACT OF 2011

=======================================================================

                                (113-70)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-962 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                ------                                

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman
JOHN J. DUNCAN, Jr., Tennessee       CORRINE BROWN, Florida
JOHN L. MICA, Florida                DANIEL LIPINSKI, Illinois
GARY G. MILLER, California           JERROLD NADLER, New York
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
SHELLEY MOORE CAPITO, West Virginia  MICHAEL H. MICHAUD, Maine
CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               ALBIO SIRES, New Jersey
BOB GIBBS, Ohio                      JANICE HAHN, California
PATRICK MEEHAN, Pennsylvania         ANN KIRKPATRICK, Arizona
RICHARD L. HANNA, New York, Vice     ELIZABETH H. ESTY, Connecticut
    Chair                            PETER A. DeFAZIO, Oregon
DANIEL WEBSTER, Florida              MICHAEL E. CAPUANO, Massachusetts
THOMAS MASSIE, Kentucky              NICK J. RAHALL, II, West Virginia
ROGER WILLIAMS, Texas                  (Ex Officio)
SCOTT PERRY, Pennsylvania
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
VACANCY






















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration................................     2
Donald F. Santa, president and chief executive officer, 
  Interstate Natural Gas Association of America..................     2
Craig O. Pierson, president, Marathon Pipe Line LLC, on behalf of 
  the Association of Oil Pipe Lines..............................     2
Ronald A. Bradley, vice president, gas operations, PECO, an 
  Exelon Company, on behalf of the American Gas Association......     2
Carl Weimer, executive director, Pipeline Safety Trust...........     2

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Elizabeth H. Esty, of Connecticut...........................    31

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Cynthia L. Quarterman.......................................    32
Donald F. Santa..................................................    50
Craig O. Pierson.................................................    55
Ronald A. Bradley................................................    68
Carl Weimer......................................................    83

                       SUBMISSIONS FOR THE RECORD

Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, response to request for 
  information from Hon. Corrine Brown, a Representative in 
  Congress from the State of Florida.............................    27
Carl Weimer, executive director, Pipeline Safety Trust, responses 
  to questions for the record from Hon. Corrine Brown, a 
  Representative in Congress from the State of Florida...........   100

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                    A REVIEW OF THE PIPELINE SAFETY,
                       REGULATORY CERTAINTY, AND
                        JOB CREATION ACT OF 2011

                              ----------                              


                         TUESDAY, MAY 20, 2014

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:12 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order.
    Good afternoon. Welcome to the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials.
    Our hearing today will focus on the implementation of the 
Pipeline Safety, Regulatory Certainty, and Job Creation Act of 
2011. This act is administered by the Pipeline and Hazardous 
Materials Safety Administration, PHMSA, and it expires at the 
end of 2015.
    The United States has the largest network of energy 
pipelines of any nation in the world, and pipelines are energy 
lifelines that power nearly all of our daily activities. 
Pipelines are the safest and most cost-effective means to 
transport the extraordinary volumes of natural gas and 
hazardous liquid products that fuel our economy.
    Since 1986, the volume of energy products transported 
through pipelines has increased by one-third, yet the number of 
reportable incidents has decreased by 28 percent.
    Pipeline safety is carried out in a partnership between 
PHMSA, State regulators and the private sector. Both Government 
and industry have taken numerous steps to improve pipeline 
safety over the last 10 years.
    While the data shows that Federal pipeline safety programs 
have been on the right track, Congress enacted the 2011 
pipeline safety bill to strengthen our efforts, as stakeholders 
understood there was room for improvement.
    The law included 42 congressional mandates of PHMSA, of 
which 21 are complete, 13 are on schedule and in progress, and 
8 have been extended beyond their deadline.
    As of April 23rd, 2014, PHMSA had issued 10 advisory 
bulletins, completed 5 reports, updated 2 parts of the Code of 
Federal Regulations and issued 1 final rule. We look forward to 
hearing from our witnesses today on those mandates and PHMSA's 
progress at implementing the 2011 law.
    We believe in a risk-based, data-driven approach to 
pipeline safety that focuses private investment in pipeline 
safety on those areas of higher risk.
    As PHMSA develops rules to implement the mandates contained 
in the 2011 act, it is critically important that we must 
provide regulatory certainty necessary for pipeline owners and 
operators to plan infrastructure investments and do so with 
input from the safety community and industry.
    Doing so means maintaining a risk-based approach that 
applies cost-benefit principles to the development of rules and 
regulations. It also means doing the due diligence to ensure 
rules do not go beyond congressional intent, thereby creating 
uncertainty for the regulated community which ultimately does 
not enhance safety.
    We will hear today that industry is also being proactive in 
its own safety initiatives to ensure best practices exist for 
things like inspections, detecting leaks and safety training.
    We will indeed hear from folks on both the hazardous 
liquids and the natural gas sides of the community that 
developing a culture of safety is important to these industries 
and the communities at large. I am looking forward to hearing 
about these initiatives.
    In closing, I look forward to hearing from our witnesses 
regarding these issues concerning pipeline safety. Shortly we 
will hear from the ranking member, Corrine Brown, for 5 minutes 
for any opening statement she may have.
    Again I would like to thank our witnesses.

    TESTIMONY OF HON. CYNTHIA L. QUARTERMAN, ADMINISTRATOR, 
PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION; DONALD 
  F. SANTA, PRESIDENT AND CHIEF EXECUTIVE OFFICER, INTERSTATE 
     NATURAL GAS ASSOCIATION OF AMERICA; CRAIG O. PIERSON, 
PRESIDENT, MARATHON PIPE LINE LLC, ON BEHALF OF THE ASSOCIATION 
   OF OIL PIPE LINES; RONALD A. BRADLEY, VICE PRESIDENT, GAS 
OPERATIONS, PECO, AN EXELON COMPANY, ON BEHALF OF THE AMERICAN 
GAS ASSOCIATION; AND CARL WEIMER, EXECUTIVE DIRECTOR, PIPELINE 
                          SAFETY TRUST

    Mr. Denham. And we will proceed with the Honorable Ms. 
Quarterman this afternoon.
    Thank you for joining us.
    Ms. Quarterman. Good afternoon, Chairman Denham, Ranking 
Member Brown and members of the subcommittee.
    Thank you for your leadership on pipeline safety issues, 
and thank you for the opportunity to appear today to discuss 
the Pipeline and Hazardous Materials Safety Administration's 
oversight of America's vast network of energy pipelines and the 
progress we have made in implementing the mandates of the 
Pipeline Safety, Regulatory Certainty, and Job Creation Act of 
2011.
    Before I begin, I would like to acknowledge former 
Transportation and Infrastructure Committee Chairman Jim 
Oberstar and pass along my condolences to his family and his 
former colleagues. I know many of you worked with him, knew him 
and were friends with him. Former Chairman Oberstar was 
incredibly smart and dedicated to making America's 
transportation network the best and the safest in the world, 
and he will be greatly missed.
    PHMSA is a little agency with a big mission. Over 2.6 
million miles of pipeline cross our Nation. These pipelines are 
a way to transport hazardous products that are essential to our 
way of life, our mobility and our Nation's economic well-being.
    Now more than ever Americans are relying on pipelines for 
energy transportation and they are expecting the companies who 
operate those pipelines to do so safely. Safety is the top 
priority of Secretary Foxx, myself and all of the employees at 
PHMSA.
    Prior to 2010, the Nation's pipeline safety record was 
improving significantly. We implemented all but one of the 
mandates of the 2006 PIPES Act and closed almost all then-
pending NTSB recommendations.
    In 2010 and 2011, a string of significant pipeline 
incidents brought an intense focus to pipeline safety. PHMSA 
received 42 congressional mandates through the Pipeline Safety 
Act, 27 NTSB recommendations, 16 OIG and 6 GAO recommendations 
following those incidents.
    We have taken a comprehensive approach to addressing these 
mandates and recommendations. In doing so, we are refining our 
policies and procedures, issuing advisory bulletins, reminding 
stakeholders of our expectations and their responsibilities, 
developing performance measures to drive safety, and 
strengthening our regulatory framework with the development of 
new regulations.
    As of right now, as the chairman mentioned, PHMSA has 
completed 50 percent of the statutory mandates and made 
significant progress towards the remaining mandates with the 
intent of completing them all.
    Our hard work is driving the industry to operate pipelines 
more safely, and I would like to highlight a few of our recent 
successes.
    We increased our penalty authority and for the first time 
can enforce oil spill preparedness regulations. We drafted 
proposed rules that will comprehensively update natural gas and 
hazardous liquid transmission pipeline transportation, 
including our integrity management requirements.
    Implementation of several key pipeline safety mandates and 
NTSB recommendations are contained in those rules. Also 
included is a comprehensive integrity verification process to 
satisfy multiple mandates from the Congress and recommendations 
that came from the tragic incident in San Bruno, California.
    Serious incidents, ones involving death or injury, continue 
their downward trend and reached a low of 25 in 2013. That is 
the lowest amount in 30 years. Further, fatalities were driven 
to a 5-year low and injuries reached a 7-year low in 2013.
    We have reduced the time it takes to close an enforcement 
case by 65 percent since 2009, and we issued record proposed 
fines in 2013.
    We continue to engage the States and the Department's Call 
to Action for modernizing high-risk pipeline infrastructure, 
and many of our research and development efforts are addressing 
the complex challenges posed by aging pipeline infrastructure.
    We also focused our inspection program to better utilize 
data and revise protocols to target the greatest risks for 
individual operators, whether they be compliance issues or 
integrity issues.
    Our new state-of-the-art training qualifications center 
will ensure we are providing and supporting our State and 
Federal inspectors and preparing them for successful 
inspections.
    While the Nation's infrastructure needs and the landscape 
surrounding energy products have changed dramatically since the 
Pipeline Safety Act was enacted, our focus on safety and the 
need for effective standards and recommendations remains the 
same.
    Thank you for the opportunity to testify here today, and I 
look forward to your questions.
    Mr. Denham. Thank you, Ms. Quarterman.
    Don Santa, president and CEO, Interstate Natural Gas 
Association of America, you may proceed.
    Mr. Santa. Thank you, Chairman Denham.
    Good afternoon, Chairman Denham, Ranking Member Brown, 
members of the subcommittee.
    My name is Donald Santa, and I am the president and CEO of 
the Interstate Natural Gas Association of America, or INGAA. 
INGAA represents interstate natural gas transmission pipeline 
operators in the U.S. and Canada.
    The pipeline systems operated by INGAA's 26 member 
companies are analogous to the Interstate Highway System, 
transporting natural gas across State and regional boundaries.
    In the wake of the natural gas pipeline accident in San 
Bruno, INGAA's board of directors committed the association and 
its member pipeline companies to the goal of zero pipeline 
safety incidents. While this is a tough and, some would say, 
impossible goal to meet, the emphasis is in the right place, a 
pursuit of excellence.
    INGAA's overarching goal of zero incidents is supported by 
four core principles. These are, one, a commitment to a safety 
culture as a critical dimension of continuous improvement; two, 
a relentless pursuit of improving by learning; three, a 
commitment to apply integrity management principles on a 
systemwide basis; and, four, a commitment to engage with 
stakeholders at all levels. Together, these principles came to 
be known as the INGAA integrity management continuous 
improvement, or IMCI, initiative.
    INGAA supported the most recent reauthorization of the 
Pipeline Safety Act in 2011 as part of its commitment to 
improve pipeline safety. We also support implementation of the 
new law through regulations.
    While progress towards INGAA's goal of zero incidents must 
continue whether new regulations are issued or not, it is 
important and desirable that there be consistency between the 
voluntary commitments in the INGAA action plan and the 
regulations that will implement the 2011 act.
    INGAA has engaged in active dialogue with PHMSA and other 
stakeholders over the past 3 years to achieve this goal. This 
has been constructive, and we have every reason to believe that 
the omnibus rule proposed by PHMSA later this year will reflect 
INGAA's input. Still, these proposed regulations are behind the 
schedule that Congress prescribed in the 2011 act.
    INGAA acknowledges that regulations should be thoughtfully 
considered and include an analysis of cost and benefits. The 
practical consequence of this delay, however, is to erode the 
confidence of some pipeline companies that proceeding with the 
dedication of resources needed to implement pipeline safety 
commitments will be consistent with the final rules adopted by 
PHMSA.
    This hesitancy is rooted in the perceived risk that the 
rules ultimately might compel repeating steps in the pipeline 
safety action plan. This is not insignificant.
    For example, testing pipelines for material strength is 
both costly and disruptive because pipelines need to be removed 
from operation to complete the testing.
    This do-over risk creates a financial risk for pipeline 
operators and their customers as well as the risk of more 
extensive operational disruptions than would be needed. This 
do-over risk should not be permitted to hold us back when we, 
as an industry, and our regulators should be moving forward.
    Our purpose here is to work collaboratively with PHMSA. 
Because the regulatory process indeed goes far beyond what 
PHMSA can control, INGAA wishes to make the point that it is 
critical that these natural gas pipeline safety regulations be 
completed in a workable and timely manner.
    It is worth recalling that the title of the most recent law 
reauthorizing the Pipeline Safety Act makes the point. It is 
the Pipeline Safety, Regulatory Certainty, and Job Creation Act 
of 2011. Regulatory certainty is necessary to move forward. 
INGAA pledges to play a constructive role in completing these 
efforts.
    Thank you for the opportunity to testify today, and I am 
happy to answer any questions that the subcommittee might have.
    Mr. Denham. Thank you, Mr. Santa.
    The next witness is Craig Pierson, president, Marathon Pipe 
Line LLC, on behalf of the Association of Oil Pipe Lines.
    Mr. Pierson, you may proceed.
    Mr. Pierson. Good afternoon.
    I am Craig Pierson, president of Marathon Pipe Line LLC.
    Marathon Pipe Line, headquartered in Findlay, Ohio, 
operates approximately 6,000 miles of pipeline in 14 States, 
mainly from Texas and Louisiana to and throughout the Midwest.
    Marathon transports crude oil and petroleum products to and 
from terminals, refineries and other pipelines. The company 
safely delivers by pipeline an average of 120 million gallons 
of crude oil and petroleum products daily.
    Today I am here in my capacity as vice chairman of American 
Petroleum Institute's Pipeline Subcommittee, speaking on behalf 
of the pipeline members of API and the Association of Oil Pipe 
Lines.
    I am also a member of the joint API and AOPL Pipeline 
Safety Excellence Steering Committee, comprised of liquid 
pipeline executives who help lead industry to improved pipeline 
safety.
    AOPL and API Pipeline members are engaged in numerous 
industrywide pipeline safety efforts, which I will discuss in a 
moment. And I have been pleased to serve on PHMSA's technical 
advisory committee for about 7 years.
    Liquid pipeline infrastructure across the United States 
benefits American consumers and workers. In 2012, liquid 
pipelines transported 14.1 billion barrels of crude oil refined 
products and natural gas liquids across more than 185,000 miles 
of pipeline.
    While pipelines provide good jobs to those who build and 
operate this critical infrastructure, all Americans benefit 
from liquid pipelines to heat their homes, to fuel their 
vehicles, harvest their crops or power jobs with the energy and 
raw materials needed to manufacture most consumer goods.
    Pipelines are safe, reliable and cost-effective for 
transporting energy liquids. In 2012, more than 99.999 percent 
of crude oil petroleum products and natural gas liquids 
transported by pipelines reached their destination safely.
    The safety records of pipelines is an understandable 
outcome of the major financial investments that pipeline 
operators make in pipeline safety each year.
    In 2012, pipeline operators spent more than $1.6 billion 
evaluating, inspecting and maintaining the integrity of their 
pipeline systems.
    Efforts like those have been underway for more than a 
decade. The result is that, over the last 10 years, the number 
of liquid pipeline incidents were reduced by over 60 percent 
and the volumes released by over 45 percent.
    While pipelines are a safe mode of energy transportation, 
liquid pipeline operators remain focused on continuous 
improvement with the ultimate goal of zero incidents.
    Earlier this year pipeline members of AOPL and API launched 
the Pipeline Safety Excellence initiative. This effort reflects 
the shared values and commitment of our members to work 
together to build and safely operate pipelines.
    The Pipeline Safety Excellence initiative is driven by the 
shared principle of zero incidents, continuous improvement and 
learning from other operators' experiences. The goal of zero is 
rooted in the belief that, if we pursue perfection, we can 
achieve excellence.
    Through the continuous industrywide pipeline safety efforts 
of numerous API and AOPL safety workgroups, we decide on our 
priorities, we pool our resources, we share our learnings so 
that other incidents do not recur. Collaboration, cooperation 
and sharing is occurring on a daily basis as we drive on our 
goal to zero.
    Pipeline operators have also begun the annual pipeline 
performance reporting to the public. We have also implemented 
an annual pipeline strategic planning process which is designed 
to make sure that we are today working on tomorrow's 
priorities.
    This process has resulted in the following industry 
standards or guidelines: first, a recommended practice to 
manage, analyze and respond to cracks; second, a guideline to 
integrate data from all threats; third, a recommended practice 
for leak detection; fourth, a recommended practice for 
emergency response; and perhaps most importantly, a recommended 
practice for pipeline safety management systems.
    We are also accelerating research and development for 
improving in-line inspection technology. We are promoting 
safety culture through industrywide sharings of learnings. And 
we are also improving training and communication with our 
emergency responders.
    I look forward to discussing these industrywide safety 
improvement efforts today and, going forward, we welcome the 
opportunity to work with this committee, PHMSA and other 
interested parties on reauthorization of the pipeline safety 
bill.
    Mr. Denham. Thank you, Mr. Pierson.
    Mr. Ron Bradley, vice president, gas operations for PECO 
Energy, on behalf of the American Gas Association.
    You may proceed.
    Mr. Bradley. Good afternoon, Chairman Denham, Ranking 
Member Brown and members of the committee.
    My name is Ron Bradley, and I serve as vice president of 
gas operations at PECO, which provides natural gas distribution 
service to 500,000 natural gas customers in southeastern 
Pennsylvania.
    I appreciate the opportunity to testify today to discuss 
the natural gas distribution industry with particular focus on 
the high priority that the industry places on safety.
    At PECO, we have six core values: safety, integrity, 
diversity, respect, accountability and continuous improvement. 
Safety is our first and foremost of these. My commitment and 
the commitment of our leadership at PECO and our parent 
company, Exelon, is that everyone goes home safe. This includes 
not only our employees, but, also, our customers, our 
contractors and everyone in the communities we serve. PECO's 
safety performance is ranked as one of the best in the Nation, 
and we are proud to have been recognized by national and State 
organizations for this.
    Today I am testifying on behalf of the American Gas 
Association, AGA, which represents more than 200 local 
distribution companies, also known as LDCs, which serve more 
than 71 million customers. AGA's member companies operate 2.4 
million miles of underground pipelines, safely delivering 
clean, affordable natural gas to residential, commercial and 
industrial customers. New technologies are tapping into new 
domestic energy reserves, and natural gas is increasingly 
becoming the fuel of choice for American customers. LDCs 
provide the last critical link in the energy delivery chain 
connecting interstate pipelines directly to homes and 
businesses. Our focus every day is ensuring that we keep the 
gas flowing safely.
    As part of an agreement with the Federal Government, most 
States assume primary responsibility for safety regulation of 
LDCs as well as intrastate transmission pipelines. State 
governments are encouraged to adopt minimum standards 
promulgated by the U.S. Department of Transportation. Many 
States also choose to adopt standards that are more stringent 
than the Federal standards.
    Additionally, our companies are in close contact with State 
pipeline safety inspectors working in a collaborative manner 
that provides for more inspections than required under Federal 
law. LDCs do not operate strictly in a compliance culture, but, 
rather, in a culture of proactive collaborative engagement. 
Each company employs trained safety professionals, provides 
ongoing employee evaluations and safety training, conducts 
rigorous system inspection, testing, maintenance, repair and 
replacement programs, and educates the public on natural gas 
safety.
    AGA's commitment to enhancing safety adopted in 2011 
provides a summary statement of these commitments. The 
association has also developed numerous pipeline safety 
initiatives focused on raising the bar on safety, including 
peer-to-peer reviews and best practice forums that share best 
practices and lessons learned throughout the industry.
    Each year LDCs spend approximately $19 million on safety, 
half of that on voluntary activities. The Pipeline Inspection, 
Protection, Enforcement and Safety Act of 2006 and the Pipeline 
Safety, Regulatory Certainty, and Job Creation Act of 2011 both 
outline several programs that help continue to improve the 
safety of the industry.
    AGA member companies have implemented aspects of these 
programs either through DOT regulations or voluntarily. Many of 
these programs are in their infancy in terms of implementation, 
and we encourage Congress to allow these programs to develop 
and to mature. Good progress is being made toward 
implementation of the 2011 law, and AGA member companies ask 
you to stay the course.
    Layering new laws and regulations on to companies before 
existing regulations have been finalized and given a reasonable 
amount of time to work is likely to create uncertainty that 
undermines our shared safety goals. Work completed to date by 
PHMSA, the industry, NARUC and State regulators and State 
legislators has combined to produce significant improvement 
over the last several years. We should build on that record.
    In terms of specific issues, the Call Before You Dig Damage 
Prevention Program, or 811, has been a great success. The PIPES 
Act also required the establishment of distribution integrity 
management programs. Rules were finalized in February 2010, and 
the industry commends the DOT on the effective manner in which 
the DIMP rules advance safety while taking into consideration 
wide differences among gas operators.
    The industry applauds DOT's work with public and emergency 
responders and is eager to work to develop metrics to assess 
the effectiveness of these programs.
    The industry is experiencing significant uncertainty 
regarding PHMSA's implementation of maximum allowable operating 
pressure and the integrity verification programs.
    We are prepared to act, but regulatory certainty provided 
by implementation of regulations would be beneficial to the 
industry and customers alike.
    Finally, with regard to the replacement of cast iron mains, 
the quantity of these mains continues to steadily decline, now 
making up less than 3 percent of total mileage. There is 33,619 
miles of cast iron mains still in use, and the industry 
estimates that it will cost nearly $83 billion to complete this 
replacement. Gas utilities are working with our legislators and 
regulators to accelerate this process, and the 38 States that 
have adopted innovative rate mechanisms are providing an 
important tool to support this.
    At PECO, we spend $20 million annually on our accelerated 
gas infrastructure maintenance program and $34 million on 
pipeline replacement overall.
    In addition to what I have highlighted today, my written 
testimony provides updates on the industry's efforts with 
regard to incident notification, data collection and 
information sharing and research and development.
    I am pleased to answer questions on these topics or any 
other topics you may have.
    Mr. Denham. Thank you, Mr. Bradley.
    Carl Weimer, executive director, Pipeline Safety Trust.
    Mr. Weimer, you may proceed.
    Mr. Weimer. Good afternoon, Chairman Denham, Ranking Member 
Brown and members of the subcommittee. Thank you for inviting 
me to speak today on the important subject of pipeline safety.
    The Pipeline Safety Trust came into being after a pipeline 
disaster that occurred 15 years ago next month. While 
prosecuting that incident, the U.S. Justice Department was so 
aghast at the way the pipeline company had operated and 
maintained their pipeline and at the lack of oversight from 
Federal regulators that they asked the Federal courts to set 
aside money from the settlement of that case to create the 
Pipeline Safety Trust as a watchdog organization over both the 
industry and the regulators. We have been trying to fulfill 
that vision ever since.
    Reviewing the implementation of the Pipeline Safety, 
Regulatory Certainty, and Job Creation Act of 2011 is somewhat 
difficult because so many of the required reports and changes 
to the regulations have yet to be produced.
    The slowness of the reporting and rulemaking process seems 
at odds with the public proclamations of concern and action 
from the administration. While many are frustrated by the slow 
progress, it is difficult to know exactly where to lay the 
blame.
    PHMSA is certainly partially to blame, since they have been 
slow to produce the required reports and regulations, but they 
have also been clear with Congress for a number of years now 
that they lack the resources needed to complete their mission 
in a timely manner.
    We also have noted that many times regulation in the 
reports gets significantly delayed by the Secretary's office 
itself or by the White House Office of Information and 
Regulatory Affairs. It would appear there is plenty of blame to 
be shared for the slowness in implementing many important 
pipeline safety initiatives.
    Even with this slowness and delay, over the past few years, 
progress has been made, as evidenced by the reduction in the 
number of incidents that involve injuries or death to all-time 
low levels.
    The pipeline industry, regulators, the public interest 
groups, have come together with a publicly stated common goal 
of zero incidents, a goal that will continually drive all 
involved to do even better.
    So while today I may criticize the implementation of some 
sections of the 2011 act, none of us should lose sight of the 
progress that has been made over the past few years.
    PHMSA has in play a number of significant rulemakings that 
may very well address many of the key issues they were told to 
address in the 2011 act and are also concerns raised in NTSB 
recommendations, things like expansion of integrity management, 
leak detection, automated shutoff valves, gas-gathering lines, 
excess flow valves, depth of burial in stream crossings and 
verification of operating pressures.
    We say these issues may be addressed because at this point 
we really don't know. While PHMSA has started the rulemaking 
process for many of these issues, for most of these items, no 
actual rule or proposed rule has been produced. Some of these 
efforts started well over 3 years ago, and the exact nature of 
the holdup is unclear.
    We ask that you request specific information from PHMSA, 
the Secretary's office and the White House Office of 
Information and Regulatory Affairs to determine where the 
holdup lies and what is being done to correct it.
    Concerned citizens and the pipeline industry alike are in a 
state of limbo regarding these regulatory issues because of the 
length of these delays.
    Congress also asked for nonrulemaking studies and actions 
in the 2011 act which are yet to be accomplished. The areas we 
are most concerned with include the availability of facility 
response plans, maps of high-consequence areas, a study of the 
transport of diluted bitumen, a report on excavation damage and 
a report on gathering lines.
    The gathering line issue is of particular importance to us, 
since we see thousands of new miles of gathering lines going 
into the ground each year with the majority of them being 
completely unregulated.
    With the large increase of new pipeline infrastructure in 
some parts of the country, the aging infrastructure in need of 
replacement in other areas and the increased complexity of 
risk-based regulations, we believe a significant increase in 
personnel to ensure the safety of the Nation's pipelines are 
justified.
    PHMSA's 2013 budget requested funding for an additional 150 
positions it said were needed to carry out its pipeline safety 
mission.
    PHMSA requested an additional $20.8 million to help provide 
additional funding to State programs where the majority of the 
pipeline safety inspectors are employed. We believe such 
increases in resources are needed and hope you will support 
them.
    In conclusion, as we move closer to the next 
reauthorization of the National Pipeline Safety Program, we 
would support a straight reauthorization of the current program 
with additional funding in the near term to allow PHMSA the 
time to finally produce all the rules and reports previously 
requested and address the long list of recommendations from the 
National Transportation Safety Board.
    Thank you again for inviting us to testify today, and I 
would be glad to answer any questions.
    Mr. Denham. Thank you, Mr. Weimer.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    At this time I would like to recognize Ranking Member 
Corrine Brown for any opening statement she might have.
    Ms. Brown. Thank you, Mr. Chairman.
    And I think I am just going to go right to the questions.
    Ms. Quarterman, at the last meeting, I asked a question 
during the HAZMAT hearing, but did not get a good response from 
DOT.
    So I ask again: What inspections and enforced resources do 
you need for hazardous and separate pipelines?
    Ms. Quarterman. For hazardous materials or for pipelines or 
for both?
    Ms. Brown. Separate.
    Ms. Quarterman. OK. Separate.
    The President's budget for 2015 adds additional resources 
for the pipeline safety program, which includes an additional 
60 FTE.
    For the hazardous material program, we have an additional 
three FTE, but there is also a separate line item, which is a 
$40 million fund to fund energy projects. It includes all 
agencies within the department that address transportation of 
crude oil.
    Ms. Brown. Many groups have voiced concern about the length 
of time it takes for DOT to finalize two major rulemakings. One 
is for liquid pipelines, and one is for the gas pipelines.
    What is the status of the rulemaking? And why have there 
been so many delays?
    And Mr. Bradley and Mr. Pierson may want to answer that, 
and Mr. Weimer too. But I want to start with you, Ms. 
Quarterman.
    Ms. Quarterman. These are very complicated and complex 
rulemakings. As you know, when we put out an advance notice of 
proposed rulemaking with respect to hazardous liquids and we 
put out a separate one with respect to gas transmission and gas 
gathering, they were basically across the board, asking about 
everything that deals with those items.
    I am happy to report that we have a draft of both of those 
rules, one of which is at the office of the OMB for review. The 
gas transmission rule is in circulation for comment and, 
hopefully, we will be able to move that forward very quickly as 
well.
    Ms. Brown. We have heard a number of concerns about the 
condition of two pipelines under the Great Lakes called Line 5. 
These pipelines are nearly 60 years old.
    What does DOT know about the condition of Line 5? And what 
has DOT done to ensure that they are safe?
    And I would like Mr. Weimer, my person, to comment on that, 
also.
    Ms. Quarterman, you first, though.
    Ms. Quarterman. OK. Thank you.
    With respect to Line 5 of the Lakehead System, if you will 
recall, there was a series of incidents associated with 
Enbridge over the past few years and, as a result of those 
incidents, the Department put the first and one-of-a-kind, I 
think, consent decree with the company that included the entire 
Lakehead pipeline system.
    I have been having meetings twice a month with respect to 
our work on that pipeline system in which we get updates on 
everything that is happening. It is a comprehensive review of 
every aspect of that program. We have spent about 300 man-years 
so far overseeing the program.
    With respect to Line 5 in specific, when we first saw in 
media accounts there were concerns with respect to that 
pipeline, we immediately contacted Enbridge and asked them what 
were their plans, what were they planning to do with that line, 
and we began to look back at past testing information to see 
what we could learn about it.
    So I have responded very recently to a series of 
congressional inquiries about that. I am happy to share a copy 
of that response with you to give you a sense of all the 
testing that has been performed on those lines.
    Suffice it to say that the plan that Enbridge has with 
respect to Line 5 is to increase throughput on that line, but 
it is beneath the existing maximum operating pressure of that 
line.
    Ms. Brown. Would you like to respond to that?
    Mr. Weimer. Sure. Thank you for the question.
    Due to the spill of nearly 1 million gallons of crude oil 
into the Kalamazoo River in 2010, there is a heightened 
awareness of pipeline issues in the Great Lakes States.
    Citizens in that area are particularly concerned with one 
of the lines, Line 5, that goes under the Great Lakes. It is 
one of the few pipelines that goes under a waterway for that 
distance, crossing at the Straits of Mackinac.
    I think the main issue is that the company and PHMSA have 
not been particularly transparent with the people that have 
been asking the questions about what shape that pipeline is in, 
how it has been tested, what those test results showed.
    We have no information to help elucidate whether that 
pipeline is safe or not, but we hope that the company has that 
information. It would be nice if they would share it with the 
citizens of Michigan.
    Ms. Brown. Thank you.
    And thank you, Mr. Chairman.
    Mr. Denham. Thank you.
    Ms. Quarterman, is PHMSA considering taking a number of the 
pending regulations and putting them into a mega-rule?
    Ms. Quarterman. We are not. We have many regulations that 
are pending. We have a rule for gas transmission which covers a 
number of issues, if that is what you are referring to.
    Mr. Denham. We have heard that, with the large backlog of 
pending regulations, that the agency was looking at combining a 
number of those rules into a mega-rule.
    Ms. Quarterman. No. That is not the case.
    Mr. Denham. That is not the case. OK.
    Mr. Santa, what are some of the biggest concerns with 
PHMSA's rulemaking progress to date with the 2011 Pipeline 
Safety Act?
    Mr. Santa. Chairman Denham, as I noted in my testimony, I 
think that our concern really has to do with the risks created 
by moving forward with our voluntary pipeline safety 
commitments and the possibility that, due to delay in the rule, 
our member pipelines may face some do-over risks. In other 
words, they do the right thing, but the rule then requires them 
to do more, which would create financial risk and, also, 
operational interference, which could affect both the pipelines 
and their customers.
    Mr. Denham. Mr. Pierson?
    Mr. Pierson. With regard to the notice of proposed 
rulemaking for hazardous liquids, we support it moving forward.
    We perform integrity management on about twice as many 
miles of pipeline as we need to beyond HCAs, and we think that 
the new rule--although we have not seen it, we think the new 
rule will recognize that.
    Mr. Denham. Mr. Bradley?
    Mr. Bradley. Yes. As I mentioned in my testimony, Chairman, 
I believe that there is a risk of uncertainty of regulation.
    The good news is that, at AGA, in 2011, we crafted with the 
approval of the AGA board the AGA commitment to safety, which 
had us commit to doing a number of activities that were over 
and above the regulations. So that hedged the risk a little, 
but uncertainty still lies out there.
    Mr. Denham. Thank you.
    Ms. Quarterman, the 2011 Pipeline Safety Act required PHMSA 
to conduct a study about the sufficiency of pipeline 
regulations for the transportation of diluted bitumen. The 
study was completed by the National Research Council.
    Can you summaries what the major findings of the report 
were.
    Ms. Quarterman. The report concluded that diluted bitumen 
was not substantially different from any of the other crudes 
that were moving on the pipeline system.
    That report, I think, has been shared with Congress. It 
came out last June, I believe. We are still working on putting 
a formal letter to you, a reporting to you, on the results of 
that report. But we will hopefully get it to you soon.
    Mr. Denham. Based on that study, does PHMSA feel that the 
current regulations are sufficient for pipelines transporting 
the diluted Bitumen?
    Ms. Quarterman. Well, we have a pending rulemaking that is 
coming forward with respect to a hazardous liquids pipeline. 
And to the extent that we thought there was any need to do 
anything more, it would within the context of that rulemaking.
    In addition, as a part of our 2014 budget, there was a 
requirement that we do a further study to evaluate whether 
dilbit spills are more risky than spills of other crudes moved 
in the United States. We are in the process of finalizing a 
contract with the National Academy of Sciences to do that study 
as well.
    Mr. Denham. Thank you.
    I recognize Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    Mr. Weimer, since World War II, a pipeline in Maine and 
Vermont and New Hampshire has shipped crude oil north to 
Canada. Recently, speculation that the pipeline flow will be 
reversed to ship tar sands down from Canada has raised a lot of 
concern among my constituents.
    Center to the concerns is the fact that--around the 
adequacy of spill response plans, the structural integrity of 
an aging pipeline and its ability to hold up the shipping of 
new material in the opposite direction.
    Many congressional Representatives from the region, 
including myself, have called for a new EIF and Presidential 
permit before such a pipeline operation can move forward.
    My question is: As an independent watchdog of the industry 
and regulator, are there other precautions or requirements you 
believe that would be necessary in order to maintain the 
pipeline's current safety operation?
    Mr. Weimer. Yes. Thank you for the question.
    I am aware of that pipeline. That pipeline actually has a 
very good safety record up to this point, but I think the 
concerns of reversing that pipeline and running a different 
type of crude oil through it are justified.
    I think the issues you laid are some of the main ones that 
need to be looked at. I know the State of New Hampshire 
recently took on spill prevention on their own because they 
were concerned that the Federal Government under PHMSA was not 
doing an adequate job of spill prevention, especially for oil 
sands types of crude where they may sink if they get out of the 
pipeline, which I think is the major concern up in that part of 
the country.
    So I think the things you laid out--looking at the 
hydraulic changes, the different constituency of that pipeline, 
what that might do to particularly stress on the pipeline, an 
aging pipeline, and then spill response if that material should 
get out--are the key things people should be looking at. And 
the States do have some authority on spill response planning.
    Mr. Michaud. Thank you very much.
    This question is for Mr. Bradley, Mr. Pierson and Mr. 
Santa.
    The current natural gas bottleneck in New England is 
crippling Maine's manufacturing base because we are at the end 
of the pipeline.
    Without increased natural gas capacity and getting 
industrial end users connected to the pipeline, Maine will 
continue to lose manufacturing jobs. A recent regional 
agreement between New England Governors is a good start, but 
more still needs to be done.
    My question is: As representatives of the private sector, 
what more can be done at the Federal, State or local level to 
increase natural gas supplied to Maine?
    We will start with Mr. Santa.
    Mr. Santa. Thank you for that question, Mr. Michaud.
    We are well aware of the capacity bottlenecks in New 
England and the effect that that is having on the region's 
consumers and industry.
    INGAA's members have proposed new pipeline capacity into 
that region. One of those projects is going ahead, the 
Algonquin Incremental Market Project. Others are in their open 
seasons.
    We applaud the region's Governors for their leadership 
through NESCOE in proposing that the cost of additional 
capacity, especially the capacity to serve electric generators, 
be defrayed by including those costs in ISO New England's 
transmission tariff.
    We also applaud some of the region's electric distribution 
companies--National Grid, United Illuminating, Northeast 
Utilities--for stepping up to be the anchor shippers on that 
pipeline capacity.
    So we are very hopeful that the region has reached a 
breakthrough and INGAA's members are very committed to getting 
more pipeline into that market.
    Mr. Pierson. From the hazardous liquids perspective, we 
have a bit different process to establish a new pipeline. As 
you know, pipelines connect supply with demand and, as demand 
changing, supply changes.
    We have got shippers that, when they have a strong need to 
make a move in a particular movement, they will make 
commitments that enable the capital to expand the pipeline.
    Mr. Bradley. Thank you for the question.
    As an LDC and the last link in the line, we are downstream 
of New England. One of the things we want to make sure we do is 
to ensure that our customers that are on an interruptible rate 
do interrupt when they should so we don't pull more gas off the 
line than we should and our customers don't pull more gas off 
the line.
    We also want to make sure that our peak day demand is well 
appropriated and we have contracts in place successively and 
demand contracts in place to move gas along the pipe.
    Mr. Michaud. Great. Thank you again.
    Administrator Quarterman, I want to thank you for your 
testimony today. And I recognize that your agency is still 
working to develop the new regulations required by the 2011 
act.
    And I would like to urge you to promulgate those rules as 
quickly as possible so that the private sector has the 
certainty that it needs to invest and expand capacity, you 
know, in regions like the State of Maine.
    So I want to thank all the panelists once again for your 
testimony this afternoon. Thank you.
    I yield back.
    Mr. Denham. Thank you, Mr. Michaud.
    Mr. Meehan.
    Mr. Meehan. I thank you, Mr. Chairman.
    And I thank the panel for their discussion on this very, 
very issue.
    Mr. Santa, talk to me a little bit about the flow of gas 
right now in the United States. We have had a remarkable 
opportunity created by the discovery of shale gas, particularly 
in Pennsylvania and other kinds of places, my colleague from 
Maine discussing simultaneously.
    And I know upstate New York and others went through a very 
difficult winter in which we had the recognition that we have 
got trapped gas assets in the ground, but an inability to get 
them to the market as quickly as we would like to.
    Obviously, I think we have implications globally to the 
extent we are able to. And my own observation sort of indicates 
that some of this is dictated by the inability to have the 
transmission lines for the gas sufficient to be able to move 
it.
    What is your observations on that? What are the 
opportunities here? And what are the impediments to being able 
to more quickly access this shale gas?
    Mr. Santa. Thank you for the question, Mr. Meehan.
    You are right. The changes that we have seen have been 
nothing short of revolutionary in terms of domestic natural gas 
production and, also, oil production due to the shale 
resources.
    This also has had a significant effect upon pipelines 
because in many cases, this gas is located in places where gas 
historically was not produced. And so we are seeing changes in 
flows on the pipelines and some dislocations caused by that.
    The good part is that the industry and the market are 
responding. When you see those capacity constraints that are 
signaled by the high prices we saw, for example, this past 
winter with the polar vortex, it sends a very powerful price 
signal that new capacity is needed and creates the incentive 
for shippers to step up and pay for that pipeline capacity.
    So I do believe overall that the market is going to solve 
this situation. And you are right. With the Marcellus shale, 
there is a remarkable amount of supply sitting literally on the 
doorstep of New England but for the pipeline capacity to get it 
there.
    Mr. Meehan. Is there an impediment to being able to get it 
there or is it simply a market-based situation?
    Mr. Santa. There are a couple of things that could be done 
that I think could help expedite the situation. The Federal 
Energy Regulatory Commission overall does a good job with 
pipeline siting. However, often a lot of the other permits that 
are needed get delayed.
    Mr. Meehan. Local permits or Federal permits?
    Mr. Santa. Primarily, Federal permits, although, in some 
instances, because authority has been delegated, it is the 
States. The House passed H.R. 1900 last year, which was a bill 
that was intended to assist that situation.
    Also, as I discussed with Mr. Michaud, getting the 
situation in New England, aligning the demand created by the 
electric generation market with somebody who has got the 
wherewithal and the creditworthiness to pay for pipeline 
capacity is a big part of answering the question there.
    Mr. Meehan. I think you also pointed. And I think it is not 
just moving those minerals for the purpose of heat and 
otherwise, but it also could be a real asset with manufacturing 
and other kinds of capacity, that we could complete globally 
much--you know, and this is something--each and every day that 
goes by is an opportunity we are losing to complete globally.
    Mr. Santa. It has been a tremendous boon to the U.S. 
petrochemical industry and other industries. As a matter of 
fact, some of that Marcellus gas and some of the pipes that 
previously had brought gas from the gulf coast and Midcontinent 
to the Northeast are getting reversed to take that gas to the 
gulf coast to feed those petrochemical complexes.
    Mr. Meehan. Mr. Bradley, you are in the gas business.
    Do you have any thoughts on this?
    Mr. Bradley. Once again, as the last guy on the line of 
using natural gas, I tend to think that, as Mr. Santa said, the 
flow--you do see the flow moving.
    You do see the natural gas from the gulf starting to make a 
reverse, and you do see more flow especially at PECO. We have 
more Marcellus flow into our territories.
    Mr. Meehan. Yes. But we are moving gas a long way to go 
down to the gulf to turn it around to bring it back.
    Mr. Bradley. Right.
    Mr. Meehan. That is what doesn't make sense to me when we 
have gas sitting right in Pennsylvania, right next to New 
England, New York and everything else.
    Mr. Bradley. That is right.
    And, in Pennsylvania, the actual amount of gas that is 
being produced is switching quickly. We have gone from 90 
percent from the gulf 4 or 5 years ago and 10 percent 
Marcellus. Last year we were 40 percent Marcellus.
    So the market is starting to shift and more Marcellus is 
flowing into Pennsylvania, especially when we have it as a 
source there.
    So I see the market fundamentals changing quickly, and I 
think over the coming years it will continue to have an impact 
on the area.
    Mr. Meehan. Just one closing question.
    Ms. Quarterman, where are we these days on the question of 
the--a lot of the older urban areas? And I represent an older 
urban area we have seen within the cast iron pipe and urban 
areas.
    Where do we sit with that in terms of how that will be 
transformed into the modern pipe that would be safer?
    Ms. Quarterman. A few years ago the Department, along with 
many of our industry partners, got together for a Call to 
Action to try to replace some of this old high-risk 
infrastructure like cast iron pipe, and we put up on our Web 
site sort of a report card of where we are and where we are 
going.
    We have been working very hard with AGA and with the 
National Association of Regulatory Utility Commissioners to say 
this is an opportunity.
    The production--the amount of production of gas means that 
the price is going down. Now is the time to invest in new 
infrastructure and removing the old infrastructure.
    As a result of those efforts, we have now 38 States that 
have put into their format--their regulatory format the ability 
to have companies recover the costs for that kind of 
replacement.
    So we are continuing to drive it, but it is not happening 
fast enough. Hopefully, we will see a continued movement to 
remove that pipe.
    Mr. Meehan. Thank you, Mr. Chairman. I yield back.
    Mr. Denham. Thank you, Mr. Meehan.
    Mr. Walz?
    Mr. Walz. Thank you, Mr. Chairman.
    And thank you all for being here. I appreciate it.
    Administrator Quarterman, I want to thank you for the kind 
words you had about our colleague and my friend, Jim Oberstar. 
I am very appreciative of that, and I think all of us here 
certainly miss him already.
    For each of you, I appreciate the work you do. I appreciate 
and I think there is a lot of lessons learned in this about 
continuing to move forward.
    I also, like many of my colleagues--we have a wonderful 
opportunity for American energy. The market is changing fairly 
dramatically in front of our eyes. I think is it is incumbent 
upon us to move ahead of that or at least with it, if you will.
    And I have just kind of a side note question because there 
is a lot of expertise here. With the safety record and with the 
things that deal with pipelines, one of the things--and, again, 
the Administrator has been on top of this issue with us.
    In my part of the world, Minnesota, we have now an 
unprecedented amount of oil moving above the ground on moving 
pipelines and trains from the Bakken oil fields.
    And my question kind of focuses on as we are looking at 
different things out there, dealing with this or whatever, is 
the spill response plans and the idea of the industry taking on 
this that doesn't apply on the railroads.
    Maybe, if I could--and I know this is fairly broad, but it 
would help me understand--is a mandatory spill response plan--
is it helpful? Can it be of use? Is it something that could 
apply on that side of the House as it does on pipelines?
    And I don't know who wants to take a stab at this.
    Mr. Pierson?
    Mr. Pierson. Your question speaks to the rail industry; is 
that correct?
    Mr. Walz. Yes, that is correct. But I think the lessons 
learned, I want to know how you have that, because they don't 
have that, if I am not mistaken. We talked about that, 
mandatory spill response. It is not that they don't have a 
plan. They do. It is just different from what is asked of you.
    Mr. Pierson. We do support the mandatory spill response 
plans, and they need to evolve as the commodity we transport 
evolves. And we have currently an improvement initiative 
underway to develop a recommended practice for operators on how 
to implement their emergency response plans better. So are they 
essential to our industry? Yes, they are.
    Mr. Walz. Is it a partnership--do you view it that way, it 
is a partnership between you and the regulators and the 
different people involved with the industry? Because I think 
there is no doubt whatsoever both rail and the pipelines, our 
interests are the same, to move commodities safely and as 
efficiently as possible. We have that same. Is it helpful when 
you have input in that, or does it feel like the mandatory part 
of it is asking you to conform to that, or does it run both 
ways? I guess my question is trying to get the very best 
response plan for my first responders as well as the experts 
that are moving this material.
    Mr. Pierson. The response plan is collaborative. We submit 
response plans. Our regulator has a chance to comment on them, 
and from that perspective, if they have got comments, it is 
collaborative.
    With regard to first responders, that relationship is one 
that is vital to us, and trying to establish a relationship 
with first responders throughout the breadth of our operations 
is very much a challenge. But quite often they will be there 
first or early, and they are an essential component. We are 
working with them to try to improve the training--improve their 
training, improve the communication that we have got with them.
    Mr. Walz. That is the very same issue--that is what I 
thought, the very same issue you are hearing from them. It is 
the communication piece, the long-term training, the 
commitment, because it is very difficult, especially smaller 
communities, how you keep them trained and how you get them out 
there. I appreciate that, and with that I yield back, Mr. 
Chairman. Thank you, all.
    Mr. Denham. Thank you, Mr. Walz.
    Mr. Hanna.
    Mr. Hanna. Thank you, Mr. Chairman.
    Thanks for being here today. I just want to ask a simple 
question. First of all, Btu gallon-for-gallon, barrel-for-
barrel, is there a safer way to move product than underground?
    Mr. Santa. Mr. Hanna, I think the record demonstrates that 
pipelines, and energy pipelines in particular, are the safest 
mode of transportation.
    Mr. Hanna. Right. So something like the Keystone pipeline 
might make sense considering the rail accidents we see.
    There is a theme that I started to go into, but regulatory 
uncertainty--and I have talked to manufacturers of pipe and 
manufacturers of new products, liners for things like cast 
iron, which I know you are familiar with, I am familiar with. 
The lack of regulatory certainty--and I respect the fact that 
Ms. Quarterman is here and you have other constraints--but 8 
out of the 42 mandates implemented in 2011 are past their 
deadline, and we have a group of people here that uniformly--
particularly Mr. Bradley spoke to it--find this to be an 
impediment to the work they are trying to do, the progress they 
are trying to make. In spite of the fact that the safety record 
has improved so much, et cetera, and fines are apparently up, I 
am not sure if that is it a good thing or a bad thing, but, you 
know, it is kind of blaming the victim, too, when these people 
are waiting for rules and regulations, willing to comply, 
anxious to find out what it is that they need to operate under, 
and yet they are at a loss for that.
    Do you think that you are keeping up with the industry and 
its demands, or would you--I mean, I would just like a 
response, because you have got four men who are here who 
generally are upset that--I don't want to put words in 
anybody's mouths--but feel constrained by the lack of product 
by your Department. And I say that respectfully. I know you 
have a lot on your plate.
    Ms. Quarterman. Well, let me say we did get 42 mandates 
with the new act; however, we got no new dollars. So the fact 
that we have done 50 percent without those additional 
resources, I think, has been great work on our part.
    The things that are far behind, or behind, are not so far 
behind that I think these gentlemen have to worry. When we talk 
about regulatory certainty, one of the things, there was a 
provision in the act that required us to do something within 18 
months. We said at the time the act came out there is 
absolutely no way that we will be able to get to a final rule 
in 18 months. And, in fact, during that 18-month period, we 
were only able to get through the information collection to get 
enough information in order to go forward with a further 
rulemaking, because you need that information in order to be 
able to support the costs associated with the rule.
    So instead of going forward with the rulemaking, we did a 
notice to the public that said this is what we are thinking of 
doing. This is the verification process that we think we will 
have when we do a final rule, and we welcome your comments on 
this before we could get to the step of the making the rule. 
And we got comments on those, and we made adoptions.
    So there is knowledge about where we are headed. It is just 
not in a rulemaking----
    Mr. Hanna. You are fully aware that you have a number of 
men and companies, big corporations--I live in--I represent the 
Binghamton area, Marcellus shale, all of that--that are 
cooperative. They are begging for support, begging for help, 
begging for direction and certainty. And you can go a long way 
towards that. And I don't hear a single person that isn't 
willing to fully cooperate.
    Mr. Bradley?
    Mr. Bradley. If I may, as I mentioned in my comments, I 
think PHMSA has been working diligently. The good news is that 
it is not hard to have a conversation with PHMSA. We are doing 
some things, and we look forward and continually look forward 
to working with them as we close out on this. I don't want to 
be overly partial.
    Mr. Hanna. Mr. Pierson?
    Mr. Pierson. I would agree with Mr. Bradley's comments. One 
of the things that we are working closely with PHMSA on is our 
pipeline safety management system. I made reference to that. 
And it was the recommendation that came from NTSB that came to 
industry. But we are working quite closely with PHMSA on some 
industry practice that can move the safety needle. So absent 
rulemaking, PHMSA is making some progress on moving forward.
    Mr. Hanna. Thank you. My time has expired. Thank you, 
Chairman.
    Mrs. Capito [presiding]. Thank you.
    I would like to recognize the gentlewoman from California 
Ms. Hahn.
    Ms. Hahn. Thank you. And I did want to thank Chairman 
Denham for holding this hearing. I was one of those who asked 
for this hearing. I wanted to have it in Los Angeles, but 
because of budget constraints, we are having it here, but I 
still welcome this. I appreciate Administrator Quarterman being 
here as well as all of the witnesses. I appreciate your 
testimony.
    I represent the Ports of Los Angeles, and part of Long 
Beach, and all the oil and gas pipelines connecting the ports 
with refineries in the area, and pipeline safety is very, very 
important to me, particularly for the communities surrounding 
those ports, mostly underserved communities, mostly working 
class, poor communities. And if there ever was environmental 
injustice, it is with those communities. The burdens that they 
have to bear because of living in proximity to our Nation's 
economic engines is unfortunate.
    One of the communities, Wilmington, I have represented 
almost 15 years, once when I was on the city council in Los 
Angeles and now here in Congress. Wilmington sits on one of the 
largest oil fields in the Nation; has a ton of pipelines 
running underneath residences, schools, near soccer fields.
    Unfortunately in March a so-called idle pipeline burst, 
causing thousands of gallons of crude oil to spill into a 
residential street, which wreaked havoc on this community not 
just when the spill occurred, but the enormous amount of 
cleanup that has to take place afterwards. Heavy equipment, 
jackhammering, really huge inconvenience, and that is like at 
the best saying we are inconvenienced. At the worst, people had 
health issues. A couple of members went to the hospital. People 
were overcome with nausea, headaches. I went out on the site 
myself, and the smell of crude oil absolutely made me and my 
aide sick to our stomachs.
    So I have a big issue. I am proud of Congress for passing 
this act in 2011, and I am proud of PHMSA for doing the best 
you can to actually implement some of these mandates, but I 
feel like there is a couple of loopholes. This law expires in 
2015, and if we are going to reauthorize it, I hope we look at 
some of the loopholes that I think still exist.
    I appreciate all of you talking about all the work that our 
pipeline owners and operators are doing, many of them on a 
voluntary basis, and thinking about pipeline safety every 
single day. The problem is I had an incident where the pipeline 
operator didn't think about pipeline safety every day; in fact, 
hadn't thought about it for 15 years.
    This company purchased a pipeline from another company and 
assumed it was idle and never inspected it. The State of 
California, the fire marshals obviously never held them 
accountable. You know, what happened was it leaked and caused 
great injury to this community.
    So part of what I have learned--and correct me if I am 
wrong--is that there is really no such thing as an idle 
pipeline. It is either active or abandoned. And if it is 
active, it has to be inspected, and we have some verification 
of that. If it is abandoned, it has to be sealed up and filled 
with some material. So the fact that they even classified this 
as idle, and the California fire marshals allowed them to 
classify this as idle, brings up a huge issue to me that there 
is some misinterpretation of our Federal regulations.
    So I guess I would ask you, Ms. Quarterman, how do you 
communicate with States or other regulatory agencies on how 
Federal laws should be interpreted? And what kind of 
evaluations take place within PHMSA to evaluate how our States 
are following the law? This was a huge loophole, really 
unnecessary, and resulted in a tragedy mainly because we have 
this honor system of how we allow operators and owners of 
pipelines to exist.
    Ms. Quarterman. We have partnerships with 53 different 
Federal and State agencies. Every one, except for Alaska and 
Hawaii, all of the other States have adopted. And what they are 
required to do is take the Federal laws that are in existence 
and create a State law that has at a minimum exactly what are 
in the Federal laws. If they want to add on top of that 
additional requirements based on their State conditions, they 
may do so.
    Ms. Hahn. But they were interpreting this wrong.
    Ms. Quarterman. I agree with you on that. I don't know if 
the California Office of the State Fire Marshal interpreted it 
wrong; I understand the operator interpreted it wrong. Because 
you are absolutely correct. There are active pipelines, and 
there are abandoned pipelines. The term ``idle pipeline'' does 
not exist in the pipeline safety law. So if you have a pipeline 
that is active, but idle, you still have to meet the 
requirements of the law.
    Ms. Hahn. This one was not inspected for over 15 years.
    I will take a second round.
    Mrs. Capito. The gentlewoman's time has expired.
    Mr. Massie from Kentucky.
    Mr. Massie. Thank you, Madam Chairman.
    Mr. Santa and Mr. Pierson or Mr. Bradley, I am an engineer, 
and so I am interested in some of the technical details here. 
Can you describe any of the technologies that your companies or 
member companies have adopted voluntarily over the years, the 
new technologies that allow you to inspect pipelines? Because 
just because we don't see somebody come out and look at the 
pipeline, I think, doesn't mean it is not being inspected.
    Mr. Pierson, just generally could you describe some of 
those technologies?
    Mr. Pierson. I will speak to in-line inspection 
technologies. There are about six different technologies now. 
It is evolving. It is probably moving more towards seven or 
eight. And if you think about a medical issue where you use an 
X-ray to look for some issues, you use an MRI, there are 
different technologies to look for different issues, there are 
two main technologies. One is ultrasonic, and the other is 
magnetic, and they orient the signals to find certain flaws.
    So there is a lot of work going on. We are accelerating our 
research and development in the pipeline industry to help find 
cracks in weld seams that we can't find today. And there is a 
lot of work going on, and it is highly technical work.
    Mr. Massie. Probably beyond our ability in Congress to 
comprehend it.
    So how would you, for instance, monitor corrosion in a pipe 
without actually going to that location physically?
    Mr. Pierson. Using in-line technology. There is about three 
different tools that we would use, depending upon the type of 
corrosion you are looking for. So there is different types of 
corrosion which need different technologies to find them.
    Mr. Massie. All right. Mr. Santa?
    Mr. Santa. Very much the same as Mr. Pierson said. The 
improvements in the ILI, or in-line inspection technology, are 
remarkable. These are also referred to by the term ``smart 
pig,'' referring to the cylindrical devices that are put into 
the pipeline, and then the ability to attach the diagnostic 
tools to them.
    A lot of the focus following the 2002 reauthorization and 
implementation of the first integrity management program for 
the gas transmission pipelines was on corrosion. Now we are 
expanding to develop devices that can be used for other 
purposes. For example, it is hoped that we can develop in-line 
inspection technology that can test the material strength and 
therefore be applied to a lot of the testing that is likely to 
be required pursuant to the PHMSA's new regulations. If we 
could do that, it would probably be more effective and also 
save us from both the cost and disruption of doing hydrostatic 
testing of pipelines.
    Mr. Massie. Thank you.
    Mr. Bradley.
    Mr. Bradley. Thank you, sir, just a few ideas. I know 
someone mentioned earlier cast iron pipe lining. That is 
another way to extend the life, although predominantly what we 
are doing in the industry is retiring cast iron and replacing 
it with more modern materials. We expanded the use of excess 
flow values on the distribution side so that we can go from 
single-family units up to multifamily units or small commercial 
properties.
    And as we put more plastic in the ground in the residential 
and commercial areas, we have gone to newer technologies to 
make sure that we can find it using GIS, tracker systems, 
marker balls, different things that are out there that help us 
so that we can help reduce underground damages as we go 
forward.
    Mr. Massie. So, in the time I have remaining, I want to go 
from the technical side to the people side. How important is it 
to do public education in communities where the pipelines are 
located, Mr. Pierson?
    Mr. Pierson. One of the most dangerous failures that we can 
suffer is one caused by third-party damage where someone 
doesn't call 811. And typically when there is excavation near a 
pipeline, that means that people are nearby, and the pipeline 
can be perforated, and then you have got a real safety issue.
    So we very, very much support getting the word out on 811. 
We also support the notice of proposed rulemaking that PHMSA is 
working on to improve damage enforcement in the States. The 
States have this authority, and PHMSA is moving them to use the 
authority to make sure people call 811.
    Mr. Massie. I just want to say in my neighborhood the 
pipeline is a very good member of the community. It is unseen. 
But, for instance, every year they show up, and it is not what 
we would call a high-risk community. It is rural. They give a 
ball cap to everybody that lives anywhere near it and a 
refrigerator magnet, and nobody has any excuses for not knowing 
to call about digging, before they dig. So it has been a good 
experience in our community. Thank you.
    Mrs. Capito. Mr. DeFazio from Oregon.
    Mr. DeFazio. Thank you, Madam Chair.
    Madam Administrator, I know it is not the direct subject of 
today's hearing, but I would like to turn to railcars yet 
again. We have had a couple of discussions of this issue this 
year, and there is a rumor that a rule has been forwarded from 
your agency which includes both railcar specifications and 
integrity issues and, secondly, operating issues, which, of 
course, are not the domain of your agency, in which you have no 
particular expertise.
    First, is there such a rule that combines both; and 
secondly, if you did the combine both, were you in full 
consultation with the FRA on the operational aspects?
    Ms. Quarterman. I am happy to report that the rumors are 
true, that we have, in fact, completed a draft rulemaking in 
consultation with FRA. I think I mentioned it the last hearing 
that we were sort of--our folks were sequestered together for a 
long time, and they turned around a rule in a couple of months. 
That rule does include a comprehensive approach to rail safety. 
It includes--I can't tell you the details of it, but it does 
address tank car issues and operational and safety issues.
    As to jurisdictional oversight, PHMSA is responsible for 
the movement of hazardous materials by all modes, which is not 
just packages, but also all the operational considerations that 
go with those movements as well.
    Mr. DeFazio. Right, but rail movement is an incredibly 
complicated issue, and I just want--but in any case, you were 
in full consultation with the FRA, and whatever it is that has 
been forwarded, they deem to be practicable and they are in 
agreement with?
    Ms. Quarterman. Absolutely. Joe Szabo and I have been like 
this.
    Mr. DeFazio. OK. So where--can you tell me where this 
rulemaking is now residing and when the public might see it?
    Ms. Quarterman. It is in the Office of Management and 
Budget, the OIRA office. They have, pursuant, I think, to an 
Executive order, a 90-day period during which they review the 
rule. I don't know what day we are on now in that review 
process. Of course, they can take longer or shorter. We are 
encouraging them to move as quickly as possible.
    Mr. DeFazio. I don't want to get in trouble here, but what 
does OMB--other than I know they have to do cost-benefit 
analyses, but what other expertise can they bring to bear if 
they are sitting around--if they are actively considering the 
rule?
    Ms. Quarterman. Well, they have many questions about the 
rule, the practical effects, the economic effects.
    Mr. DeFazio. So they are forwarding questions back to you 
and asking----
    Ms. Quarterman. We have been meeting on not a daily basis, 
but I would say we have been meeting with them on a weekly 
basis with respect to this rule.
    Mr. DeFazio. So at this point if I wanted to express the 
urgency of getting a rule out, I should direct my attention to 
the OMB? OK. Thank you.
    One other question. I have sat on the committee for a 
number of years, and we have been through two reauthorizations 
since I have been here. And one particular concern in a number 
of incidents was distant capability of shutting off--automated 
capability of shutting off pipelines without having to dispatch 
someone to the site and having the time that elapses. We don't 
have a rule there. Is this just such a problematic technology, 
or are we making progress on this? Why aren't we there yet?
    Ms. Quarterman. We are making progress on this. It was one 
of the items within the Pipeline Safety Act.
    Mr. DeFazio. Uh-huh.
    Ms. Quarterman. We did two separate advance notices, one on 
hazardous liquid and one on gas transmission. Included in both 
of those were questions related to both leak detection and 
automated shut-off valves.
    There was a requirement with respect to both of those. We 
had to do an independent study. We have done that study, and we 
are in the process of drafting a rule to address those issues.
    Mr. DeFazio. OK. Thank you.
    Thank you, Madam Chairman. My time has about expired.
    Mrs. Capito. Mr. Williams from Texas.
    Mr. Williams. Thank you, and thank all of you for being 
here today. We appreciate it very much.
    First of all, with full disclosure, I am from Texas, and we 
have--pipelines are important to us in Texas. They are 
important to us in my district, which has the Barnett shale and 
Comanche Peak Nuclear Power Plant. And I am a big private-
sector guy, and I believe we have got too many Government 
regulations in our life.
    My first question is to you, Mr. Santa. I was hoping you 
could speak about how important regulatory certainty is for 
expanded demand in oil and gas needs between now and 2035.
    Mr. Santa. Thank you for the question, Mr. Williams.
    There is going to be a significant need for new midstream 
pipeline infrastructure in the United States between now and 
2035. As a matter of fact, the research arm of the INGAA 
Foundation recently released an update of its report on this, 
addressing the natural gas side of the equation. That report 
indicates the need for some 339,000 miles of midstream pipeline 
between 2014 and 2035.
    Admittedly, the bulk of that is going to be smaller 
diameter pipe primarily in connecting all of this new gas 
supply. There is also going to need to be almost 13 million 
horsepower of natural gas compression added during that period. 
And the total cost for this is going to be approximately $200 
billion.
    While the report covers about 20 years, the bulk of this is 
going to be needed over the next 5 to 10 years. The report also 
covers both crude oil and natural gas liquid infrastructure, 
where there also is going to be a significant demand for new 
midstream pipelines.
    So, yes, regulatory certainty will be important for us to 
move forward with that, although I would add to what my 
colleague said earlier. We do recognize the actions by 
Administrator Quarterman and her colleagues at PHMSA in terms 
of outreach with us working on things like the integrity 
verification process. So we appreciate their efforts.
    Mr. Williams. Another question to you. Are there any 
roadblocks that are keeping you from meeting the needs that you 
have? And can Congress do anything to help you?
    Mr. Santa. Overall the market works well. This is very much 
market driven. Also, on the interstate natural gas pipeline 
side, the Federal Energy Regulatory Commission does a very good 
job.
    There are some issues associated with the host of permits 
that one must get in addition to a FERC certificate. These are 
often pursuant to other Federal laws and other Federal agencies 
and sometimes delegated to State agencies. Mr. Pompeo's bill, 
H.R. 1900, which was passed by the House late last year, if 
that were to be enacted into law, we think it would be a step 
in the right direction in terms of giving FERC some effective 
enforcement authority over those other agencies.
    Mr. Williams. Thank you.
    Mr. Weimer, a couple of quick questions for you. What I am 
going to ask you today are focused on the review approval and 
siting of new oil pipelines. And I know this topic is largely a 
State function and may be a little beyond this committee's 
jurisdiction. I would like to hear what you have to say about 
these questions.
    First of all, what is the Pipeline Safety Trust's view on 
the review, approval, and siting of new oil pipelines?
    Mr. Weimer. Well, I think to sum it up, it is kind of a 
mess in this country right now, because unlike natural gas 
pipelines where you have a FERC process for interstate natural 
gas pipelines, there is not one place that either the public, 
local governments, or the industry can go to to figure out how 
to put a liquid pipeline in the ground.
    If it crosses an international boundary, you get into the 
State Department, like we have with Keystone. If it doesn't do 
that, then it falls on State by State. Some States have siting 
authorities; some don't. If they don't, then it falls county to 
county or municipality to municipality. So it is a real 
patchwork of trying to put a new liquid pipeline in the ground.
    Mr. Williams. So I guess I would ask, does your 
organization support the current law letting States have 
jurisdiction over siting and review of new oil pipelines?
    Mr. Weimer. Yeah, we certainly do support that. In 
Washington State, where I am from, we have an energy facility 
siting evaluation committee that works very well for siting of 
those types of things.
    Mr. Williams. And would you also separate the process of 
new oil pipelines versus interstate natural gas transmission 
pipelines?
    Mr. Weimer. Well, I think there needs to be a new process, 
whether it falls under something like FERC for interstate 
natural gas, or whether it falls State by State or some other 
agency is looking at siting of oil pipelines. We just need a 
better process than what there is now.
    Mr. Williams. Do you believe there are benefits to the FERC 
approach?
    Mr. Weimer. I think there are. I think everybody knows 
upfront what they are doing. FERC has worked hard to make it a 
very upfront program where the public understands the process. 
That doesn't happen with liquid pipelines at this point. Often 
people are angry because they don't find out until too late in 
the process what is going on.
    Mr. Williams. Thank you. I yield back.
    Mrs. Capito. The gentleman yields back.
    We have had a request to open up for another quick round of 
second questions, particularly Ms. Hahn, who requested the 
hearing. I would just like to make a quick comment since I 
haven't really spoken yet.
    I am from West Virginia, and we had the pipeline explosion 
that went across our interstate there, and then I think it 
destroyed several properties. By the grace of God, there was 
nobody in those properties or nobody close by. It was a 
relatively--I don't want--it wasn't a new pipeline, but it 
wasn't exceedingly old either at the same time.
    And so going along the vein of Mr. Williams, we have 
Marcellus shale development in our State, and we are having 
massive pipeline construction, and we welcome it. It is a job 
creator, no doubt about it, and we want that.
    But, you know, I will say the investigation was very 
thorough in terms of what happened in West Virginia, and I hope 
we take lessons learned there. The shut-off valve was one of 
the issues that came up during the discussion and also the 
deterioration of the materials that were used at the time.
    So where you think it can't happen or won't happen, and 
this was just sort of a random place, it can happen any time at 
any place, I guess, without the great precautions. So I 
appreciate everything everybody here is doing to try to prevent 
that from happening anywhere else and to make sure that the 
lessons that we learn from unfortunate incidences like this we 
can use to perform, and be better, and be safer.
    And so with that, I will first go to the ranking member. 
She had one more question, so we will go to her first, and then 
we will go to you, Ms. Hahn.
    Ms. Brown. Thank you, Madam Chair.
    I did not get a chance to do my opening statement, and I 
guess I do want to say that the Department of Transportation 
says that natural gas--pipelines is--the safest way to 
transport natural gas is through the pipelines. But in 2011 
alone pipeline incidents caused 14 fatalities. This compared to 
more than 32,000 on the highways, 557 on rail, 485 in aviation, 
and 106 in transit. With that said, the difference between 
pipelines and other transportation modes is that one single 
pipeline incident can cause all kinds of damages to the 
environment and property.
    We have seen several of these in recent times from the gulf 
coast to Michigan, California, New York, Montana and my home 
State of Florida. Many of these incidents formed the basis for 
the 2014 act, including requiring increased civil penalties, 
installing automatic shut-off valves and leak-defection systems 
in certain pipelines, inspection and repair requirements, 
increasing communication between pipeline operators and State 
and local emergency responders.
    With that said, in 2011, I fought to include a provision in 
the law that required the Secretary to make all document 
references and regulation available to the public free of 
charge. What is the status of this requirement, and has it been 
fully implemented, Ms. Quarterman?
    Ms. Quarterman. Yes. I am happy to report that the 
requirement that the documents that have been incorporated by 
reference, we have been able to put--we have reached an 
agreement with all except one of the standards agencies to put 
those items on the Internet for free. Subsequent to that 
legislation, there was an amendment of the legislation that 
expanded the deadline on that, I think. But we are making for 
that one standard body--we are ensuring that those standards 
are available here in Washington, DC, in our offices and 
elsewhere for folks to be able to come and look at them. But we 
have made great progress. Thank you.
    Ms. Brown. I am confused. You said they can come to 
Washington, DC, and take a look at them?
    Ms. Quarterman. Anyplace that we have an office and have 
the standards available, they can see them for this one 
particular association.
    Ms. Brown. But the others--well, who is this one that 
hasn't met this agreement?
    Ms. Quarterman. I don't remember off the top of my head, 
and I don't want to say the wrong name here. I will get back to 
you on that.
    [The information follows from Hon. Cynthia Quarterman, 
Administrator, Pipeline and Hazardous Materials Safety 
Administration:]

    American Society of Mechanical Engineers.

    Ms. Brown. I would like to know that name of that one group 
that has not agreed to it, because basically the local 
respondents need to know and be able to--they can't afford--
each little community can't afford to purchase the regulations, 
and that is what we discussed, and it is a part of the law, and 
I really would like to know when the entire provision has been 
implemented.
    Also, I understand that there are more than 200,000 miles 
of U.S. lines that is unregulated. Can you explain why this is 
a major concern, and what is your recommendations what we need 
to do about it?
    Ms. Quarterman. I assume you are referring to gathering 
lines? There was a requirement in the act that we do a study on 
gathering lines, which we have drafted. It is in circulation, 
and we hope to get it to the committee very, very soon. We also 
have that in consideration in the pending rulemakings, how to 
deal with gathering.
    Ms. Brown. Would anyone else like to respond to that?
    Yes, sir?
    Mr. Weimer. Yes. The gathering line issue is one of our 
major issues. For instance, just a couple of years ago, there 
was 10,000 new miles of pipelines that went into the State of 
Pennsylvania; 9,200 of those miles were totally unregulated 
rural gathering lines that run past people's homes. While the 
Marcellus shale has been a great economic opportunity, it is 
also putting people at risk, and the regulations haven't kept 
up with that.
    Ms. Brown. So what is your recommendation?
    Mr. Weimer. Well, we feel that gathering lines that are the 
same size, diameter and same risk as the gas transmission lines 
ought to be regulated the same as gas transmission lines, and 
we are hoping that is what PHMSA is recommending as they come 
forward with the rulemaking.
    Ms. Brown. Thank you.
    Mrs. Capito. Ms. Hahn.
    Ms. Hahn. Thank you.
    I am still upset about what happened in my community of 
Wilmington, and while I appreciate my colleague who--the oil 
company in his community is handing out ball caps and 
refrigerator magnets, my community, the jackhammering 
afterwards to reach the pipeline and cap it caused driveways to 
be cracked, refrigerators to be ruined, grass to die. The whole 
neighborhood is ruined because of this company who failed to 
inspect their own pipeline and didn't even know that it was 
full of oil, or they were bypassing the process of abandoning 
it, and, again, it caused huge havoc in this community.
    I am going to introduce legislation that I think would help 
to close these loopholes and accomplish two goals. One, the 
first legislation would ensure that a company purchasing a 
pipeline actually does its due diligence, and it would be 
Federal law to know what the status is within 180 days of 
purchasing the pipeline and have that information available to 
the public.
    And the second, it would require that for a pipeline to be 
designated as abandoned, either PHMSA or the State authority 
would need to be present at the time of the inspection.
    And I am just going to ask you, Ms. Quarterman, what kind 
of resources would PHMSA need to accomplish these two goals?
    Ms. Quarterman. Well, the first half of that I don't think 
is a PHMSA resource question. The second half, in addition to 
the inspectors that PHMSA has, there are another 300 
inspectors, approximately, that are funded by States. I would 
have to go back and probably do an estimate of how many----
    Ms. Hahn. About how many pipelines are determined abandoned 
every year?
    Ms. Quarterman. I don't know the answer to that. We would 
have to do a calculation based on the number that are 
abandoned, unless one of the gentleman here could address that 
issue, and an estimate of how much time it would take us to do 
that.
    Ms. Hahn. Again, I am all for emergency response and 
awareness in the community, but I would like to prevent the 
ones that happened in Wilmington from ever happening.
    What kind of penalties or fines would this company be 
liable for in this recent incident?
    Ms. Quarterman. Each State adopts their civil penalty 
amounts. Ours are high. Not every State has the same level of 
civil penalties. One of our initiatives is to ensure that all 
States are increasing their civil penalties. I know California, 
at least on the gas pipeline side, has very high civil penalty 
authority. I am not sure what they have on the State side, 
though, in their law.
    Ms. Hahn. Would you be levying the fine, or is this just 
the State would be doing this?
    Ms. Quarterman. In this instance it was under the State's 
jurisdiction, so it would be the State levying the fine.
    Ms. Hahn. OK. Thank you.
    Would any of the rest of you like to comment on my proposed 
legislation?
    Mr. Santa. Ms. Hahn, for interstate natural gas pipelines, 
abandonment is required by the Federal Energy Regulatory 
Commission. That is in part because when the pipe is put into 
service, it requires FERC approval; to take it out of service 
or convert it to another use, it requires FERC approval. There 
is a public record there. There is a public proceeding with 
notice. And also there are, as has been noted, PHMSA 
requirements on the gas side as well that apply to taking the 
pipeline out of service. So I think on the interstate gas 
pipeline side, I think we have got a pretty transparent and 
effective regime already.
    Mr. Pierson. In the hazardous liquids industry, a pipeline, 
if it is not flowing, is still regulated. And so if it is full 
and not flowing, it is still regulated and falls under the same 
regulatory regime.
    Ms. Hahn. But if it is not--if this company claimed it was 
empty and idle?
    Mr. Pierson. As Ms. Quarterman mentioned, there isn't 
necessarily a term of ``idled.''
    Ms. Hahn. Right.
    Mr. Pierson. And we would--if there is language or movement 
on that, we would be interested in seeing what PHMSA would 
propose on how to make----
    Ms. Hahn. When a company purchases a pipeline, would you be 
opposed to this idea that within 180 days, the information 
about what is in that pipeline ought to be available? This was 
a full pipeline.
    Mr. Pierson. Yes. I am not familiar with all the details of 
the incident that you are talking about, but if there were 
language out there and an area for improvement, we would listen 
and talk about it.
    Ms. Hahn. Thank you.
    Mr. Bradley?
    Mr. Bradley. Absolutely. On the distribution side we have a 
number of rules, distribution and transmission, for retiring 
pipeline, when we tie in brand-new pipeline and purge and clear 
out. If we hold natural gas pressure in that pipeline, we still 
treat it as requiring preventive maintenance inspections, if it 
is steel cathodic protection, et cetera. I don't see there 
being an issue with the rule that you are proposing.
    Ms. Hahn. I just want this sort of third-party verification 
for our communities. The honor system is great, but it failed 
us.
    Thank you. I yield back.
    Mrs. Capito. Thank you. The gentlelady yields back. Thank 
you.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    I would really like to thank our witnesses today, again, 
for your testimony.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                             [all]
                             
                             
                             
                                    
</pre></body></html>
